CREDIT CARD
ACCOUNT
OPENING
DISCLOSURE

VISA CLASSIC
This Disclosure is incorporated into and becomes part of Your LOANLINER® Consumer Credit Card Agreement &
Disclosure. Please keep this attached to Your LOANLINER Consumer Credit Card Agreement & Disclosure.
Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases
APR for Balance Transfers

9.90%

APR for Cash Advances

10.90%

Penalty APR and When it Applies

14.90%

10.90%

This APR may be applied to Your Account if You:
- Make a late payment.
How Long Will the Penalty APR Apply? If Your APRs are increased for
this reason, the Penalty APR will apply until You make six consecutive
minimum payments when due.
Paying Interest

Your due date is at least 25 days after the close of each billing cycle. We will
not charge You any interest on purchases if You pay Your entire balance by
the due date each month. We will begin charging interest on cash advances
and balance transfers on the transaction date.

For Credit Card Tips from the
Consumer Financial Protection Bureau

To learn more about factors to consider when applying for or using a
credit card, visit the website of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore.

Fees
Transaction Fees
- Foreign Transaction Fee

1.00% of each transaction in U.S. dollars

Penalty Fees
- Late Payment Fee

Up to $25.00

How We Will Calculate Your Balance:
We use a method called "average daily balance (excluding new purchases) (including new balance transfers and cash
advances)." See Your Account Agreement for more details.
Application of Penalty APR:
Your APR may be increased to the disclosed Penalty APR if You are 60 days late in making a payment.
Billing Rights:
Information on Your rights to dispute transactions and how to exercise those rights is provided in Your Account
Agreement.
Military Lending Act Disclosures:
Federal law provides important protections to members of the Armed Forces and their dependents relating to extensions
of consumer credit. In general, the cost of consumer credit to a member of the Armed Forces and his or her dependent
may not exceed an annual percentage rate of 36 percent. This rate must include, as applicable to the credit transaction or
account: The costs associated with credit insurance premiums; fees for ancillary products sold in connection with the
credit transaction; any application fee charged (other than certain application fees for specified credit transactions or
accounts); and any participation fee charged (other than certain participation fees for a credit card account).
SEE NEXT PAGE for more important information about Your Account.
© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

03111048-MXC20-P-1-111517 (MXC201-E)

Please call us at (833) 746-6415 to receive oral disclosures of the Military Lending Act disclosure above and a description
of the payment obligation.
Other Fees & Disclosures:
Late Payment Fee:
$25.00 or the amount of the required minimum payment, whichever is less, if You are 1 or more days late in making a
payment. If Your Account is subject to a Late Payment Fee, the fee will be charged to Your Account when You do not
make the required minimum payment by or within the number of days of the statement Payment Due Date set forth on this
Disclosure.
Rush Fee:
$70.00. If Your Account is subject to a Rush Fee, except as limited by applicable law, a fee may be charged to Your
Account for each rush Card that You request, providing that delivery of the Card is also available by standard mail service,
without paying a fee for delivery.
Statement Copy Fee:
$1.00 . If Your Account is subject to a Statement Copy Fee, except as limited by applicable law and when the request is
made in connection with a billing error made by the Credit Union, a fee may be charged to Your Account for each copy of
a sales draft or statement that You request.
Express Card Fee:
$35.00. Express card fee (rush card fee)
Collection Costs:
You agree to pay all costs of collecting the amount You owe under this Agreement, including court costs and reasonable
attorney's fees.
Periodic Rates:
The Purchase APR is 9.90% which is a daily periodic rate of 0.0275%.
The Balance Transfer APR is 10.90% which is a daily periodic rate of 0.0303%.
The Cash Advance APR is 10.90% which is a daily periodic rate of 0.0303%.
The Penalty Rate APR is 14.90% which is a daily periodic rate of 0.0414% .

© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

03111048-MXC20-P-1-111517 (MXC201-E)

